Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




CARRIER ASSIGNMENT OF MEDICARE 

       PROVIDER NUMBERS 





                                          .




                 Richard P. Kusserow
                INSPECTOR   GENERAL

                      APRIL   1992
                             OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452, as
amended, is to protect the integrity of the Department of Health and Human Services* (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and managementproblems, and recommends courses to correct them.

                                 OFFICE OF AUDIT SERVICES

The OIG’s Offtce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities, and are intended to provide independent assessmentsof HHS programs and
operations in order to reduce waste, abuse and mismanagementand to promote economy and
efficiency throughout the Department.

                                 OFFICE OF INVESTIGATIONS

The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions, or
civil money penalties. The 01 also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                      OFFICE OF EVALUATION               AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in the inspections reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

Entitled “Carrier Assignment of Medicare Provider Numbers,” this report describes and assessesthe
process by which Medicare carriers assign provider numbers. This report was prepared under the
direction of Ralph Tunnell, Regional Inspector General of Region VI, Office of Evaluation and
Inspections, and Chester B. Slaughter, Deputy Regional Inspector General. Participating in this
project were the following OIG personnel:

Region VI, OEI                                                          Headquarters, OEI

Kevin Golladay                                                          Wayne Powell
Leah Bostick
Douglas Lauver
 Department of Health and Human Services
          OFFICE OF
    INSPECTOR   GENERAL




CARRIER ASSIGNMENT OF MEDICARE 

       PROVIDER NUMBERS 





                  Richard P. Kusserow
                 INSPECTOR   GENERAL

                      OEI-0643940871
                   EXECUTIVE                       SUMMARY

PURPOSE

This report describes and assessesthe process by which Medicare carriers assign provider
numbers.



Medicare carriers assign provider numbers to qualified providers of Part B services who
furnish services or supplies to Medicare beneficiaries. The numbers are used in processing
claims and establishing Medicare pricing and utilization profiles. To obtain a provider
number from a carrier, providers typically complete the carrier’s provider number application
form and meet criteria specified by Medicare regulations. Carriers are responsible for
determining if providers meet Medicare criteria through its number assignment process.

METHODOLOGY

This inspection consisted of several phases. First, we conducted a review of relevant Health
Care Financing Administration (HCFA) policies and Medicare laws and discussions with
HCFA staff. Next, we requestedcopies of all application forms used by carriers to obtain
information prior to assigning a number to a provider. To test assignment procedures, we
reviewed carrier documentation supporting the recent assignment of numbers to more than
240 providers. Specifically, 40 carriers were asked to supply file documentation for the most
recent applicant assigned a provider number for seven different types of providers (solo
physician, physician group or clinic, chiropractor, durable medical equipment supplier,
ambulance, certified registered nurse anesthetist, and physician assistant). Next, we
surveyed 38 carrier personnel responsible for assigning numbers. Additionally, we discussed
provider number assignment vulnerabilities with carrier program integrity staff (25
respondents) and reviewed files of providers with overpayments selected from the 12/01/89
HCFA Physician/Supplier Overpayment Report. Finally, we reviewed Management
Implication Reports (MIRs) prepared by the Office of Inspector General’s Office of
Investigations (01) suggesting provider number assignment problems and concerns. We
contacted each of the eight 01 regional offices to obtain case experience and perspectives and
to discuss prior MIRs.

FINDINGS

HCFA’s Direction    and Oversight   of Carrier Provider   Number   Assignment    Procedures
are Inadequate.

       The HCFA provides insufficient practical direction to carriers concerning the provider
       number assignment function. Specifically, HCFA has not clearly defined the methods
       or depth of understanding and testing to ensure adequate knowledge about a provider
       before a number is assigned. Our review of carrier instructions in the Medicare


                                               i
       Carrier Manual (MCM) identified several issuesnot adequately addressed. For
       example, what is a carrier’s responsibility to understandand determine legal
       authorization to practice? This lack of direction and oversight contributes to carrier
       provider number assignment weaknessesand vulnerabilities.

Carrier Provider   Number Assignment      Weaknesses     and Vulnerabilities   Exist.

0      Many cartiers do not adequately document provider number assignment procedures.

0      Cartiers obtain or maintain too little provider infomration.

              Application forms often do not obtain sufficient information from providers.

              Little or no businessownership information is required by carriers.

              Ironically, the least regulated providers (e.g., durable medical equipment) are
              the least scrutinized by carriers when applying for a provider number.

              Carrier application forms are often missing or not readily retrievable.

0	     Some carriers fail to verkif provider qualifications prior to assignment of a prwider
       number.

              Some carriers do not validate provider credentials (e.g., State license).

              Many carriers allow reassignmentof benefits without determining if the
              reassignment meets Medicare legal requirements.

0      Weak provider number assignment procedures contribute to progmm vulnembilities.

              Carrier methods or practice to identify all numbers assigned to a provider are
              inadequate.

              Providers can manipulate multiple numbers and jurisdiction rules to increase
              reimbursement or avoid detection of abusive practices.

              Most carriers do not uniquely identify physician assistantsand thus, cannot
              perform adequateutilization review.

              Carrier computer records maintained on providers need improvement.
              Specifically, provider name irregularities exist and provider State license
              numbers are missing or inaccurately entered.

0	    Many carriers assign additional provider numbers solely for a provider’s
      bookkeeping convenience.
OIG Recommendations         and HCFA Action            Plan

In our draft report, we made specific recommendations to correct the weaknesses cited
above. (They are included verbatim on page 20 of this final report.) The HCFA provided
written comments on the draft report. More importantly, however, HCFA itself has
undertaken several major initiatives to address these problems and related issues raised in a
prior OIG report entitled “Carrier Maintenance of Medicare Provider Numbers.” We and
HCFA, therefore, worked together to reach agreement on an action plan to improve the
provider number process. In light of this, we are no longer designating the problems cited in
this and the prior report as a material weakness. The following is the agreed upon action
plan:


                            MEDICARE       PROVIDER           NUMBERS

                                        ACTION         PLAN



       HCFA will issue a modification to the Medicare Carrier Manual which will:

               Clearly state that carriers have a responsibility to ensure the integrity of
               provider numbers and to ensure that only those practitioners and providers
               with legal authority to practice are given and may retain provider
               numbers.

               Require carriers to stay abreast of changes in relevant laws and regulations
               concerning medical practice requirements.

              Require carriers to make every reasonable effort to receive on an ongoing
              basis information from State licensing authorities and other appropriate
              bodies about the currency of licenses.

              Require carriers to maintain provider number applications for at least six
              years after deactivation of the number (the period needed to facilitate
              investigations, prosecutions, and sanctions). This requirement pertains to
              applications from both health professionals and provider entities which are
              discussed separately below.

             Require carriers to periodically purge from their lists of approved numbers
             those that have been inactive and for professionals or entities who no
             longer have valid licenses required by the State.


      HEALTH     PROFESSIONALS

      HCFA will continue to vigorously implement and enforce compliance with the
      provisions of the recently established UPIN system for Medicare physicians

                                                .. .
                                                Ill
(which includes medical doctors, osteopaths, dentists, chiropractors, podiatrists,
and optometrists).

HCFA will explore the extension of the UPIN system to cover all limited licensed
professionals that can bill Medicare directly. HCFA will provide a schedule for
doing so. This would include clinical psychologists, clinical social workers, and
certified registered nurse anesthetists.

All registry data will be made readily available to all carriers on January 1. 1992.
(Procedures prior to that date only allowed carriers to obtain information about
professionals within their own jurisdiction.)

HCFA will monitor and ensure compliance of the carriers with their responsibili­
ties regarding provider numbers as set forth in the Medicare Carrier Manual. (See
GENERQL section above.)




HCFA will implement a major reform of the carrier process for dealing with
certain “suppliers”. (Here, the term is meant to include entities which provide:
durable medical equipment, routine and readily available supplies, prosthetics,
orthotics, immunosuppressant drugs, and ESRD services.)

Some of the more important features of this initiative are:

        Four regional carriers will be responsible for establishing supplier numbers
        and processing all Medicare claims for the above mentioned supplies.

        A clearinghouse which will contain information from supplier number
        applications and whose data will be accessible to all of these carriers.

        A standard application form which includes information to enable the
        carriers to identify each unique entity, their ownership, related entities,
        and sanctions.

        The application form will contain a signed statement of the applicant
        attesting to the veracity of all information provided and acknowledging
        responsibility for false or misleading statements.

        The carriers will be responsible for processing all claims for supplies
        furnished to beneficiaries who reside within their jurisdiction.

HCFA plans to implement this major reform within the next two years.

The statement of work for the contract under which these carriers will function
will include a clear statement of responsibilities concerning supplier numbers
similar to those listed in the GENERAL. section above.


                                         iv
These carriers will be required to use the information in the clearinghouse to
screen applicants for supplier numbers for such things as relationships to
sanctioned individuals or business or to businesses suspected of fraud or abuse.

The carriers will verify the accuracy and completeness of the information
contained in supplier number applications and files, and will identify and take
appropriate action against problem suppliers.

HCFA will vigorously monitor compliance of these carriers with those contractual
provisions related to the application for, granting of, and maintenance of supplier
numbers. HCFA is determining how the performance of these carriers will be
evaluated.

HCFA will require carriers to reenroll all suppliers every two years to insure that
the ownership and operating information remains current.

In the future, HCFA will extend this system to cover other supplier entities such
as independent physiological labs, magnetic resonance imagers, and ambulance
companies. In the meantime, however, these other supplier entities will be
required to use a standard application form with provisions for identifying
ownership and sanctions, and including the signed veracity certification.




                                          V
                                 TABLEOFCONTENTS

EXECUTIVE            SUMMARY

INTRODUCTION                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     1


 Purpose. ....................................................                                                                         1 ’

 Background.      .................................................                                                                    1

 Methodology.        ................................................                                                                  4


FINDINGS            ,...,................a........................                                                                     6


 HCFA’s Direction and Oversight of Carrier Provider Number Assignment 

 Procedures are Inadequate   . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . .                              6


 Carrier Provider Number Assignment                              Weaknesses           and Vulnerabilities      Exist    . . . . . .    7


     Many carriers do not document                           provider      number assignment            procedures        . . . . .    7


     Carriers obtain or maintain                    too little provider         information         . . . . . . . . . . . . . . . .    7


     Some carriers fail to verify                   provider         qualifications       . . . . . . . . . . . . . . . . . . . .     10 


     Weak provider             number assignment procedures contribute to program
     vulnerabilities            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             12 


     Many carriers assign additional provider numbers solely for a provider’s 

     bookkeeping convenience      . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . .                            17 


RECOMMENDATIONS                          . . , . , . , . . . , . . , . . . . . . . . . . . . . . . . . . . . . . .                    20 


HCFA RESPONSE AND ACTION                                    PLAN . . . . . . . . . . . . . . . . . . . . . . . . . .                  22 


APPENDICES                 . . . . . . . . . . . . . . . . . . . . . ..a..................                                            24 


         Appendix           A:                Part B Providers
         Appendix           B:                Carrier Respondents and State Jurisdictions
         Appendix           C: 	              Examples of Information Requested on Application Forms for
                                              DME and Physicians
         Appendix           D:                Claim Jurisdiction Rules Simplified
         Appendix           E:                Examples of Carrier Methods of Processing PA Claims 

         Appendix           F:                Physician Registry Activity by Carrier 

         Appendix           G:                Carrier Provider Number Assignment Activity 

         Appendix           H:                Carrier Supplied Counts of Various Types of Providers 

                            INTRODUCTION

PURPOSE

This report reviews the processby which Medicare carriers assign provider numbers.
Specific objectives were to:

       1) describe and assesscarrier provider number assignment procedures and
       2) discuss vulnerabilities in these procedures.

A recently released report, “Carrier Maintenance of Medicare Provider Numbers” (OEI-06-
89-00870), prepared in conjunction with this inspection, describes and assesseshow carriers
maintain provider numbers once assigned.

BACKGROUND

Carriers are private insurance companies acting under contract with the Health Care
Financing Administration (HCFA) to processclaims by beneficiaries and providers for
services or supplies covered under Medicare Part B. While most Stateshave jurisdiction for
one State, a few carriers handle more than one State. The HCFA provides direction to the
carriers on payment matters and is ultimately responsible for ensuring carriers adhere to
applicable program policies and procedures.

In fiscal year 1989, Part B covered approximately 32 million enrollees and paid benefits of
about $37 billion for over 407 million claims. With such an enormous expenditure of
government funds and volume of claims to process, it is imperative carriers ensure payments
are 1) made only for services covered under the Medicare program, 2) medically necessary
under recognized standardsof medical care, 3) actually rendered to eligible Medicare
beneficiaries, 4) reimbursed at appropriate payment levels, and 5) delivered by providers
meeting standardsrequired by State and Federal law.

State Licensure and Certification

Licensing and certifying providers are primarily State functions. Individuals or entities must
meet State criteria to obtain and maintain a license or certification. The States are
responsible for regulating the practice of those they have licensed or certified. Statesare
also responsible for ensuring these providers meet standardsof professional competence and
personal integrity considered necessaryto protect the public.

The State license or certificate demonstratesthe provider satisfies the State’s established
standardsin such areas as education, experience, and ethics. Once licensed or certified, the
provider must then comply with the State’s prescribed standards for the practice of the
profession and any other specified criteria for maintaining a license or certification.
Failure to meet these requirements may result in the State suspendingor restricting the
license or certificate to provide services. When a provider loses the legal authority to
practice, no seNices of the provider are covered by Medicare.

Fedeml Interest in Medical Provider Qual$htions

The Federal government has shown a strong interest in ensuring medical providers have
adequatequalifications. The Consolidated Omnibus Budget Reconciliation Act of 1985
mandated a physician registry and the use of a unique practitioner identifier number (UPIN)
to prevent duplicate payments for hospital-basedphysicians and interns under the Medicare
program and to more accurately track Federally-sanctioned physicians. The HCFA oversees
the registry.

Another database,the National Practitioner Data Bank, recently began operation monitoring
State licensed health practitioners. This data bank maintains records of all adverseactions
(e.g., license revocation, malpractice) taken against medical providers and entities after the
opening of the data bank. The data bank was authorized by the Health Care Quality
Improvement Act of 1986 (P.L. 99-660, title IV) and the Medicare and Medicaid Patient and
Program Protection Act of 1987 (P.L. 100-93, section 5). This databank is monitored by the
Public Health Service (PHS).

These two databasesenhancethe Federal government’s ability to monitor providers.
However, responsibility for ensuring Medicare providers meet licensing and other
requirements specified by State and Federal law rests ultimately with carriers.

Carrier Ptvvider Number Assignment

Carriers assign unique identification numbers (hereafter referred to as provider numbers) to
providers of Medicare Part B reimbursable servicesor supplies. Provider numbers are used
in processing claims for services rendered to Medicare beneficiaries. The number is also
used in establishing Medicare pricing and utilization profiles. If the provider of services
does not have a provider number, payment probably will not be made for services. To
obtain a provider number from a carrier, providers must follow the carrier’s application
procedures. This generally involves completion of the carrier’s provider number application
form. Additionally, the provider must meet Medicare requirements. Carriers assumeall
costs for assigning and maintaining provider numbers.

The accuracy and effectiveness of a carrier in meeting applicable Medicare responsibilities is
dependent in large measure upon its provider number assignmentprocess. As described thus
far, the provider number assignment processappearsto be relatively simple. However, its
simplicity disguises its importance; failure to adequately determine a provider’s qualifications
and payment variables can have significant consequencesfor the Medicare program in fraud,
abuse, or error. Prudence and common sensedictate provider numbers should be guarded
with every reasonablediligence.
&ledicare Reouirements 


Prior to the issuanceof a provider number, carriers need to establish the following: 


   Provider                   What provider(s)      renders services      or supplies?
   Identification

   Credential                 Does the provider meet Medicare qualifications              (e.g., legally authorized   by the
   Verification               State where services are rendered)?

   Exclusion from             Is the provider     prohibited    from participating   in the Medicare    program?
   Participation

   Carrier Claim              What carrier has jurisdiction        for claims submitted     by the provider7
   Jurisdiction

   Carrier Pricing            What method of reimbursement      applies (e.g., fee schedule)? What is the
   Rules                      correct customary and prevailing charge to use? What is the specialty of the
                              provider7  Is the provider Medicare participating   or not?

   Reassignment               Will the payment go to the provider of services or to another (e.g., employer)?
   Limitations                If so, will the recipient of monies meet Medicare reassignment  limitations?

   Reporting                  What information is required for submission            of a record by carriers to the
   Requirements               Physician Registry and to HCFA?

   Utilization      Review    What review       and profiling   parameters     should apply to this provider7


Further, Medicare law and policy differentiates between two very different types of
applicants for Medicare provider numbers:

         0	           Providers of services or supplies - entities and individuals actually performing
                      services or nrovidinp sun&es to beneficiariq.

                     Carriers are responsible for verification of any prerequisite credentials
                     (e.g., license, equipment, seller’s permit, etc.) specified by State, local, or
                     Federal law. Medicare law and policy place differing requirements on
                     different types of providers. Generally, a provider of services must be legally
                     authorized to provide the services by the State where services are rendered.
                     For example, Medicare law requires covered physician services be rendered by
                     licensed physicians who are “legally authorized to practice” (Social Security
                     Act, Section 1861) by the State where the services are rendered.

                     Although qualifications for other Medicare provider types may include State
                     licensure or certification, some providers (e.g., ambulance companies) are
                     required to meet additional education, work experience, staff, or equipment
                     needs in order to participate in the Medicare program.
              However, this is not to say every provider type must meet specified criteria.
              Some providers, such as durable medical equipment @ME), generally’ do not
              have to meet any criteria except to possessa Social Security number or an
              employer identification number.

              Beyond the need to determine applicant qualifications, there are a variety of
              payment and program integrity responsibilities tied to data collection and
              computer analysis of the service provider’s Medicare experience.

       0	     Billers of services and supplies - entities and organizations billin? for the
              services or sunnlies nrovided.

              Carriers must determine if the entity requesting payment meets Medicare
              requirements. If the individual or entity (partnership, professional association,
              clinic, etc.) billing and receiving payment did not actually provide the service
              or supply, carriers must establish the relationship between the biller and
              performer of services. Also, Medicare requires carriers to ensure payment is
              not made to entities or individuals excluded from participation in Medicare.
              Finally, carriers should have sufficient information about the billing entity
              (owners, agents, officers, etc.) in the event questions arise concerning payment
              or if overpayments need to be recovered from liable individuals or entities.

In addition to the concern over provider number assignment, the areasaddressedin this
report are considered especially timely in light of physician payment reforms, establishment
of the Physician Registry, and HCFA’s interest in ensuring the quality of providers of
Medicare services.

METHODOLOGY

This inspection consisted of several phases. First, we conducted a review of relevant HCFA
policies and Medicare laws and discussionswith HCFA staff. Next, we requestedcopies of
all application forms used by carriers to obtain information prior to assigning a number to a
provider. To test assignment procedures, we reviewed carrier documentation supporting the
recent assignment of numbers to more than 240 providers. Specifically, 40 carriers were
asked to supply file documentation for the most recent applicant assigneda provider number
in the following categories:

       0      Solo-practice physician 

       0      Physician group or clinic 

       0      Chiropractor 

       0      Ambulance 

       0      Durable medical equipment 

       0      Physician assistant (PA) 

       0      Certified registered nurse anesthetist (CRNA) 


       For this inspection, we excluded any review of providers certified by HCFA for 

       participation in Medicare. This was done to limit the scope of work. Additionally, 


                                               4
       this was done in recognition of State survey and certification agency review of the
       provider’s credentials and HCFA’s assignmentof provider numbers rather than carrier
       assignment of provider numbers to many of these types of providers. (See Appendix
       A for a list of Part B providers and those certified by HCFA.)

Next, we visited three carriers and mailed surveys, with telephone followup, to 35 others.
(See Appendix B for a complete list of carrier respondentsand Statejurisdictions.) The 38
respondentswere carrier personnel responsible for assigning numbers.

Additionally, we discussednumber assignmentvulnerabilities with carrier program integrity
staff (25 respondents)and reviewed files of providers with overpayments selected from the
12/01/89 HCFA Physician/Supplier Overpayment Report.

Finally, we reviewed Management Implication Reports (MJRs) prepared by the Office of
Inspector General’s Office of Investigations (01) suggestingprovider number assignment
problems and concerns. We contacted the eight 01 regional offices to obtain caseexperience
and perspectives and to discussprior MIRs.
                                       FINDINGS 


HCFA’s Direction      and Oversight     of Carrier Provider Number        Assignment      Procedures
are Inadequate.

The HCFA provides insufficient practical direction to carriers concerning the provider
number assignment function. Specifically, HCFA has not clearly defined the methods or
depth of understanding and testing to insure adequateknowledge about a provider before a
number is assigned (e.g., DME). Our review of carrier instructions in the Medicare Carrier
Manual (MCM) identified several issuesnot adequately addressed. Among them are:

       How are carriers to determine legal authorization to practice?

       What is the minimum information to be obtainedfrom providers by carriers?

       What identifying provider information should be maintained in the carrier’s computer system?    _

       How is a physician ‘s specialty to be determined?

       Should providers complete carrier application forms? Should they be maintained?

       When is it appropriate to assign multiple provider numbers to the sameprovider?

       What carrier controls should existfor the utilization review of providers having multiple
       numbers?

Insufficient direction and oversight has contributed to carrier assignment vulnerabilities.
Twenty of the carrier provider number assignmentpersonnel contacted recognize weaknesses
and believe HCFA should play a prominent role by providing more guidance concerning
number assignment policies. Some areas noted by carriers include the need for:

      More ‘policy issued regarding suppliers - establishing guidelines for qualifying as a
      DME supplier, ownership questions, etc. ”

      More specific guidance on “jurisdiction, multiple ojfice settings, and clinics. ”

       “National standards for non-physicians (e.g., DME). ”

      “Clearer guidelines regarding physicians under contract with groups/clinics and
      other physicians meeting employee status requirements. ”

       “Certification guidelines for physiological laboratories. *

       “Guidance when it is appropriate to have more than one number. ”
A critical and fundamental point of control for correct payment and detection of abusive
providers occurs during the provider number assignmentprocess. While the Physician
Registry is certainly a step in the right direction, many weaknessesand vulnerabilities still
exist in provider number assignment procedures. These weaknessesor vulnerabilities could
result in adverse monetary or quality of care consequencesfor the Medicare program or
beneficiaries.


Carrier Provider   Number   Assignment    Weaknesses     and Vulnerabilities   Exist.

Many caniers do not adequately document provider number assignment pnwdures.

Nearly 50 percent of carriers (18) have no formal written internal procedures for number
assignment. A lack of written instructions on provider number assignment may complicate
training of new staff and may promote inconsistency in the provider number assignment
process. Additionally, a lack of documented procedures may complicate review by HCFA
to determine carrier implementation of manual instructions affecting provider number
assignment.

Cbniers obtain or main&in too little provider infotmation.

0      Application forms often do not obtain sufficient information from providers.

Carrier applications represent the minimal information required to determine who the
provider is and what pricing parameters apply (locality, specialty, hospital based, etc.). The
applications used by carriers raise concern about the rigor with which carriers scrutinize
providers. This concern is based on the fact that many carrier provider number application
forms obtain little information from provider number applicants. (See Appendix C for a
listing of the types of questions being asked on application forms for DME and physicians).

Many carriers limit applications to a few basic claims questions (name, tax number, address,
type of provider, and license number); few ask for additional information. (See Figure 1 for
examples of questions asked by carriers.) By not asking questions beyond basic claims
information, a carrier may make incorrect assumptions about the provider’s situation.

Additionally, several carrier application forms lack professionalism. Specifically, the
application form may not be professional in appearance(i.e., typeset or desktop published).
Also, questions may not be 1) presented in a logical sequenceor 2) clear in meaning.
                            Carriers Require Little Information                     From Providers
                                                                     ,,.:.... . ...              ...,:,.:.,... ., ,.:..,.         ., .,.,
                                                                     :::.:.:.
                                                                        ,.,.? : j ........” .i ::’‘...:...:.:.:.:.’
                                                                                                              :’
                                                                                .:i:;:..
                                                                     ........ ..‘. .“.”
                                                                                     ..:.:.. :,,,,+:.:.::~::.~&f*~
                                                                                  .:..
                                                                                :.:.:..
                                                                                  ....
                                                                                                                                ‘.G*&&
                                                                                                                            .Cti+::
                                                                                                                                                     D&
                                                                                                                                                :.Pe.tietit
                                                                                and
                                                                                -
                                                                                           -


                                                                                                                                      27             71%
    Do you use a billing agency?                                                                                                            6        16%
    What other txovider numbers with thus earner do VW have?                                                                           IS            RmL



                                                       WQrShnfiage Area?




                                                                                    ness.




                                                                         tions? 	                                                       i            I-,­
                                                                                                                                        8            22%
                                                                                                                                        6            16%
 I Will VW      billina for
        _ ~- -- -......     natkant?: .WWw..W”
                        .-. r-..-..I  hwtad    in nthnr
                                               ..I VU,“, ct3ta.s
                                                         e,a,.zai                                                                       c)
 I Owner’s name?

                                                                                                                            I           a,           I
                                            ?r earner unsdlctlons?                                                                      al           3




                                                          Figure 1

0        Little or no businessownership information is required by carriers.

Over one-third of carriers reviewed (15) do not routinely ask for DME ownership
information on the application for assignment of a provider number. A slightly higher
number (22) of carriers do not routinely ask ambulance companies to identify owners. Only
one carrier requires ownership information from clinics or professional associations.

A lack of ownership information leaves the carrier in a position of not being able to
determine if the company is controlled or owned by an individual, group of individuals, or a


                                                               8
businessentity who has been convicted of a criminal or sanctionable offense related to
participation in Medicare and Medicaid.

Also, failure to obtain ownership allows providers the opportunity to escapecarrier review of
provider numbers not identified with the owner(s). For example, 12 carriers noted instances
during the past year where businessentities with overpayments or who were on prepayment
or postpayment review simply ceasedusing the provider number for the troubled business
and obtained a new provider number from the same or other carriers. Some providers may
even use the same employer identification number @IN), social security number (SW), or
addressbut simply change their name on the new application for a new provider number.
Without ownership information, alteration of any identifying information (name, EIN,
address)can disguise the provider enough to obtain a new provider number. Thus, a
provider may easily escapecarrier controls.

Even when ownership information is required, many carriers limit ownership questions to a
single owner’s name. Very few carriers require the supplier to identify all owners,
individuals with financial interest, directors, and/or officers.

Carriers have long been criticized for not requiring businessesto disclose ownership. In
responseto this weakness, Congresshas passedlegislation (Omnibus Budget Reconciliation
Act of 1990, P.L. 101-508) providing the authority for carriers to obtain ownership and
financial interest information from suppliers and mobile labs. Although implementing
regulations are not yet written by HCFA, ownership information should enhancecarrier
efforts to track problem suppliers. However, carriers must be required to obtain and use
ownership information if the gathering of such information is to have a real impact on
deterring fraud and abuse.

0	     Ironically, the least regulated providers are the least scrutinized by carriers when
       applying for a provider number.

Some nonphysician suppliers are essentially unregulated by State and Federal agencies.
These entities provide such products as DME, oxygen*, prosthetics, and other similar types
of supplies. The HCFA does not require carriers to obtain specific information from these
providers. As a consequence,only a few carriers ask for additional application information
beyond basic information (e.g., name, address, tax number, phone number) to ensure a
carrier’s understanding of the provider’s request and situation. Additional information may
be neededto correctly determine payment or utilization review parameters.

Some areas not fully explored by all carriers involve ownership, carrier jurisdiction, and the
provider’s present and past Medicare activity. Such information is crucial as a first step in
deterring providers from “gaming” the program (a provider’s efforts to maximize
reimbursement through fraudulent or abusive practices).

0      Carrier application forms are often missing or not readily retrievable.

While few (5) carriers reported not requiring completed applications prior to provider
number assignment, many carriers requiring completed applications do not have applications

                                               9
(hardcopy or microfiche) for many active providers. For example, Aetna of Georgia
estimates only 20 percent of providers have applications on file. The carrier reports, during
the transition from the prior carrier to Aetna (1989), files were “received incomplete.”
Equicor (North Carolina) estimates from 15 to 20 percent of applications are missing. Like
Aetna, Equicor attributes this to the previous carrier which did not always require completed
applications. Another carrier, Blue Cross and Blue Shield of Alabama, estimates 15 to 25
percent of applications are missing becausethe carrier’s “application process has been in
place for only 3 years.”

The application document acts as a source record if any questions arise concerning possible
misrepresentation on the part of the provider. According to 01 investigators and HCFA,
such a record is often very important to criminal casesand civil recovery by the carrier and
HCFA.

Additionally, in our review of documentation supporting providers recently assignedprovider
numbers, we found some key documentation was lacking. For example, the carrier may
have reported verification of the provider’s license was done by requesting a copy of the
license from the provider; however, no license was present in the file documentation.
Additionally, if telephone contact with the licensing board was made, most carriers failed to
document the call. Our review of documentation for physicians recently assigneda provider
number, revealed only 19 carriers had adequately documented their method of licensure
verification,

Some caniem fail to Ye@,&pmvider q@ficahns          prior to assi@unent of a provider
number.

0      Some carriers do not validate provider credentials.

Several carriers do not validate or document the credentials of Part B providers prior to
provider number assignment. (SeeFigure 2.) In direct contradiction to Part 4 of the MCM,
six carriers make no attempt to validate a solo practice physician’s license. The MCM
(1001.3) specifically states, at a minimum, carriers wilI “verify all physician submitted data
with the appropriate State licensing board to determine if the physician is registered and
licensed to practice.” An additional three carriers do not validate credentials of a physician
in a group or clinic. Again, these carriers are not in compliance with MCM instructions
which specifically require credential verification “regardless of whether the physician has a
solo or group practice. ”

Carriers report validation is not done primarily becauseof a lack of resourcesor funding for
this activity. None of the carriers attributed their failure to validate a medical physician’s
license to lack of cooperativenessby the applicable State medical board. During our
discussions with these State medical boards, each reported it could and would respond in a
timely manner to carrier attempts to verify a license.

The MCM does not specify the methods by which carriers must verify provider credentials.
As a consequence,the methods used differ between carriers. Most carriers verify a
provider’s license and registration from a board listing of licensed providers. Other carriers

                                               10
either contact boards directly or request a copy of the license or registration from the
provider. (See Figure 2.)



    Provider




    I Two caniera requimd no nwihttion   since State does not recognke   PAS   Source:   Camw Survey (37 respondents)

                                                             Figure 2

The MCM (2070.2) requires carriers to obtain listings from boards for some provider types.
For example, carriers are required to “secure from the State licensing agency a current
listing of psychologists holding the required credentials.” We found several carriers not
maintaining such a listing. They either contact the board for verification, accept a copy of
the license from the provider, or do not validate the license. Further, the MCM does not
specify how often the listing must be updated.

0           Many carriers allow reassignmentof benefits without determining if the reassignment
            meets Medicare legal requirements.

Carriers are limited by Medicare law in paying assignedbenefits. Payment is made only to
the physician or other supplier who furnished the service and may not be made to any other
person or organization under a reassignment, or power of attorney, or under any other
arrangement where the other person or organization receives the payment directly. Payment
is considered to be made directly to an ineligible person or organization if the person or
organization can convert the payment to its own use and control without the payment first
passing through the control of the physician or other supplier or a party eligible to receive
the payment under reassignment exceptions.3 (See Figure 3.)




                                                                 11
                                       Reassignment       Exceptions

         1) 	    Payment to Employer - The Medicare program may pay the employer of the
                 physician or other supplier if the physician or other supplier is required, as a
                 condition of his employment, to turn over to his employer the fees for this
                 services.

         2) 	   Payment to Facility - The Medicare program may pay the facility in which the
                service was furnished if there is a contractual arrangement between the facility
                and the physician or other supplier under which the facility bills for the
                physician’s or other supplier’s service.

         3) 	   Payment to    Organized Health Care Delivery System - The Medicare program
                may pay an    organized health care delivery system if there is a contractual
                arrangement     between the organization and the physician or other supplier
                under which    the organization bills for the physician or other supplier’s services.

         4) 	   Payment to a Governmental Agency - Medicare law does not preclude
                reassignment to a governmental  agency or entity which qualifies for payment
                under 1, 2 or 3 above as an employer, facility, or organization.

         5) 	   Payment Pursuant to a Court Order - Payment may be made provided the
                conditions set forth in the Medicare Carriers Manual, Part II, 5304 are satisfied.

         6) 	   Payment to an Agent - The Medicare program may make payment in the name
                of the provider to an agent who furnishes billing or collection services for a
                provider or entity authorized to receive payment.

                                                  Figure 3


Although reassignment exceptions should be testedprior to the assignment of a provider
number, many of the carrier application forms reviewed do not question the provider
concerning which reassignment exceptions are met. Only 15 carrier application forms
attempt to test the reassignment exception. For example, Texas Blue Cross and Blue Shield
requests the applicant to specify if an employee-employer relationship exists. (A W-2 would
indicate such a relationship, whereas a 1099 indicates a contractor relationship.)

Additionally, 11 carrier group/clinic application forms involving reassignment do not provide
a signed acknowledgement of reassignmentby group or clinic members.

Weak ptvvider number assi@tmentpmcedum contribute to pmgmm vdnembilities.

0	     Carrier methods or practices to identify all provider numbers assigned to a provider
       are inadequate.

Carrier controls to identify all provider numbers assigned to the same entity are insufficient.
Most carriers make little effort to link related provider numbers. Only five carriers link
related provider numbers with a computer linking tag and only sevenother carriers link
provider numbers through their process of building off of a base number (modifiers added to

                                                   12
base number). These linking procedures make determination of a provider’s numbers a
relatively simple matter in most cases. However, in order for the linking process to be
complete, the carrier must determine all provider numbers related to a provider at the time of
provider number assignment.

Other carriers rely on manual and/or computer searching for related provider numbers for
the same provider. Searching may be done by name, SSN or EIN, license number,
ownership, UPIN, or address(or a combination of these). However, carriers typically do
not employ all available searchcriteria to identify related provider numbers. Such limited
searchesallow for the possibility of missing a related provider number. For example, a
name search on a businessmight not identify a supplier with several provider numbers under
differing names (e.g., Allied Medical Supply, AMS, Allied Supply). Additionally, although
the provider number department may routinely conduct adequatesearchesfor provider
numbers, other carrier departments (e.g., overpayment recovery, medical review) may not.

Requesting on the application all additional provider numbers the provider number applicant
now has or has had with w carrier is a good practice. Many (24) carriers reported
requiring providers to identify any other provider numbers issued by their carrier. However,
only 12 carriers report asking for any numbers providers have with other carriers.

There was no indication in provider files reviewed of searchesfor additional provider
numbers. Consequently, we have no documentation of the extent of review effort employed
by carriers. We do lmow, from talking to carrier personnel, at least one carrier makes no
effort to check for additional provider numbers, relying solely on the provider to list on the
application any existing provider numbers.

0      Providers can manipulate multiple provider numbers and jurisdiction rules to increase
       reimbursement or avoid detection of abusive practices.

Medicare utilizes a system of provider payment based on historical fee patterns and carriers’
discretionary definitions of geographic pay localities, provider specialty, and other payment
variables. This process results in payment differentials among types of procedures, carrier
pricing localities, specialties, and sites of care. Additionally, differences exist in carrier UR
policies. Combined, these factors create an environment where incentives exist for providers
to misrepresent themselvesor take advantageof regulatory or carrier loopholes in order to
maximize reimbursement or avoid detection of abusive practices. Two areas especially
vulnerable to abuse are manipulation of provider numbers to avoid program integrity review
and manipulation of claim jurisdiction rules.

Providers with multinle Drovider numbers can weaken a carrier’s oroaram inter&v activities.

Many of the program integrity staff interviewed report usageof multiple provider numbers
make medical and utilization reviews (MRKJR) more difficult. A provider with multiple
provider numbers can knowingly or unknowingly, evade some utilization screens(e.g., initial
office visits) and possible prepayment or postpayment reviews if all of the provider’s
numbers are not identified for review and used in the review process.


                                                13
One of the primary purposes of postpayment UR is to compare the pattern of practice of
individual providers with that of their peers in several separatecategories of services, such as
office and hospital visits. This review involves the computer generation of the previous
calendar year’s paid claims data for all providers in the carrier’s service area. Since the
profiles make comparisons to other like providers and predefine4 limits, the failure of the
carrier to assemblea provider’s fulI service history through its computer could produce
misleading results. Specifically, the UR report may not reveal an existing aberrant practice.
For example, a provider with several provider numbers may spreadbillings among the
provider numbers so that any one provider number will not exceed a UR screen threshold;
yet, when combined, may exceed the threshold.

Complicating the adequacyof program integrity activity as well as provider number
assignment may be a lack of knowledge of each department’s concerns and activities. Only
four carrier program integrity respondentsstatedthey were more than somewhat familiar
with assignmentprocedures. Additionally, nearly all program integrity respondentsstated
more information should be obtained from providers. However, provider assignment
departments may not be informed of or respond to suggestionsby program integrity staff.
As one program integrity respondent stated, “they rarely utilize our suggestionsfor change.”

A lack of communication and coordination may lesson the effectivenessof both program
integrity functions and the adequacyof provider number assignment. Since each area may
encounter different problems where improvements in the assignmentprocesscould alleviate,
both should maintain close ties. Additionally, this should apply to other areasaffected by
provider number assignmentpolicies (e.g., overpayment recovery).

Carrier nrovider number aonlication inadeouaciesand weak euidelines allow manipulation
and abuse of carrier claim iurisdiction,

Carrier claim jurisdiction issues, addressedin the MCM section 3100, apply to 1) a carrier’s
determination whether this or another carrier is responsible for processing the provider’s
claims and 2) what pricing locality within the carrier should be used. (See Appendix D for a
simplified view of jurisdiction rules.)

Many carrier provider number applications do not ask sufficient questions to fully test
jurisdiction rules. As an example, only 12 carriers determine through their application forms
if durable medical equipment suppliers have salesrepresentativesin the State. This is just
one of many questions which could help a carrier determine proper claim jurisdiction.
Failure to ask such questions could causethe carrier to make an incorrect claim jurisdiction
decision which, in turn, could result in payments from carriers with higher reimbursement
allowances or less stringent UR policies.

Carriers indicate concern some providers (e.g., DME) misrepresent themselveswhen
obtaining provider numbers or manipulate the jurisdiction rules (e.g., point of sale through
use of l-800 numbers or call forwarding) in order to game the system. Specifically, some
providers “forum shop” to find the carrier paying the most for specific procedures or
supplies and/or has the most lenient utilization review policy. Several casesof manipulation
or abuse have been documented by carriers and 01 investigators.

                                              14
                              Manipulation    of Jurisdiction    Rules

       Use of l-800 numbers typically involves a company in one state establishing a
       l-800 number in another State for the sole purpose of obtaining a higher
       reimbursement     from the other carrier and/or avoiding UR limits. For example, an
       Oklahoma supplier providing supplies to Oklahoma residents may find that California
       has a higher reimbursement     rate per item. To get around the jurisdiction rules which
       state that the carrier for the jurisdiction where the order was taken is responsible for
       processing the claim (point of sale), the provider gets a l-800 number in California.
       Instead of making a call to the Oklahoma supplier using a local number, beneficiaries
       are directed to use the l-800 number. Since the point of sale is now California, the
       California carrier makes payment.



An example of DME jurisdiction abuseunderscoresa lack of carrier controls regarding
a claim jurisdiction determination:


                             Jurisdiction    Abuse:    A Case Example

       This case involves Medicare Carrier A. Carrier A did not recognize through its
       application process, that a company (Company A) seeking a number was essentially
       a billing entity and not a supplier. Company A had entered into a business
       arrangement with an ostomy supply company (Company 8) operating in another
       state and carrier’s jurisdiction.    Company A agreed to buy all invoices for supplies
       sold and delivered from or at Company B. Company A pays Company B 125% of
       the face value of the retail price on the invoice. Company A then bills Carrier A for
       the supplies as if they had supplied them in the first place. Also, Company A is
       alleged to be fragmenting      purchased supplies in order to maximize reimbursement.
       Both companies are now under investigation        by the OIG.

       The carrier’s application process did not identify whether Company A was actually a
       supplier.   Had the carrier scrutinized the company to a greater degree, the intentions
       of the supplier might have been discovered during the application process, rather
       than after significant overpayments     had occurred.



Correct determination of claim jurisdiction may also be an issue with physicians. For
example, the definition of a physician’s office for purposes of determining the correct locality
prevailing charge is vague when the physician provides services in multiple pricing localities
with no clearly defined offices or an office which is primarily just a billing office.

 Claim jurisdiction can be confusing and could be manipulated by providers unless carriers
 carefully scrutinize provider applications to determine the applicant’s situation. Yet, most
 carrier applications do not request sufficient information from providers to test for unusual
jurisdictional situations. Consequently, it is possible a carrier would not recognize an
 unusual situation and make an incorrect jurisdiction decision resulting in overpayments.



                                                  15
 0	     Most carriers do not uniquely identify physician assistantsand thus, cannot perform
        adequateutilization reviews.

Only five carriers assign provider numbers to PAS. Those not assigning PAS a unique
identifier number do not have a meansof conducting utilization review. Although carriers
are required to develop charge profiles for PAS, PAS are not subject to the same UR
monitoring activity on an individual basis except for a tangential review under the employing
group or physician.

While relatively small, the number of PAS has increased the last few years at a rate of over
2,000 per year nationally. As of the beginning of this year, there were approximately
23,500 PAS.

Dependenceon the supervising physician - PA relationship, the small number of PAS, and
the requirement that PA servicesbe billed by the physician may explain why many carriers
have devised provider number assignment schemeswhich do not recognize the PA
independently (PA given a separateprovider number). Although many carriers do require or
verify a PA’s certification or license, 11 carriers do not. (See Appendix E for a description
of some carrier methods for processing PA claims.)

While some carriers do not validate the credentials of a PA, several more do not determine if
the physician billing the Medicare service is in fact the supervising physician pursuant to
State registration requirements. An example of such registration requirements exist in Ohio.
An Ohio PA is only allowed to practice as an employee and under the direction of a
supervising physician or group of physicians. Further, PAS must be registered with the
applicable State board. Section 4730.02(f) of the Ohio Revised Code states, “when the
assistantceasesto be employed by the physician or physicians to whom his certifkate of
registration is issued, his registration is immediately suspended.”

0      Carrier computer records maintained on providers need improvement.

Especially in the caseof computer matcheswith State medical boards to determine legal
authorization to practice, certain carrier records must be entered accurately. Two fields are
especially important - provider name and license number.

Provider name irregularities exist.

Review of carrier provider files at the three carriers visited revealed carriers enter the name
as given by the provider on the application. For example, one provider might be listed as
Robert Stanley Smith Jr. on his license, while the carrier might have entered the name as
Rob Smith or R. Smith on the carrier’s file. Additionally, we saw many providers with
multiple provider numbers having different name variations for the same provider.

Another problem, noted by the Physician Registry, involves hyphenated names. Some
carriers have entered hyphenated names in their computer system in a manner complicating



                                               16
 matching with the Registry. As an example, a carrier might submit records having 

 hyphenated names where the fust part of the hyphenated name is in the last name field while 

 the rest of the name is in the suffix field. This makes computer matching of the name fields 

 very difficult according to the Registry. 


 The situations mentioned above create unwarranted confusion not only for computer matching 

 but for anyone reviewing provider records. 


 Provider license numbers are missing or inaccuratelv entered, 


 License numbers facilitate communication with licensing agenciesconcerning providers who 

 have lost the legal authority to practice. Specifically, it is a crucial data element for 

 computer or manual matching which might occur with data supplied by a State licensing 

 agency or board. 


While few carriers do not record provider license numbers in the provider’s computer 

record, a considerable number of carriers have only recently begun this activity. 

Additionally, several carriers do not enter the license number for all types of providers. For 

example, 13 carriers do not enter the license number of an independent clinical psychologist. 

This compares to only two carriers not entering the license number of a doctor of medicine. 


Even if the license number is entered, carriers may not be ensuring the accuracy of the 

number. To illustrate, in the three carrier provider Nes reviewed, we encountered error and 

inconsistency in the recording of license numbers. Transposing digits of the number was the 

most frequently encountered error. To a lesser extent, some license numbers were 

incomplete, had too many digits, or included inappropriate prefixes. 


Many caniers assign adZtional provider numbers solely for a ptwider’s bookkeeping 

convenience. 


Several situations can allow a provider to legitimately have more than one provider number 

(or modifier to a base number). Carriers give a physician who practices in both a group and 

a solo practice a number for each. If a provider has a practice in more than one reasonable 

charge locality, carriers assign the provider different provider numbers or modifiers to an 

existing provider number for each of these localities. 


However, a solo provider with the same specialty and practice in the same pay locality can 

have only one customary charge profile regardless of the number of offices maintained 

@KM 5209). Some carriers interpret this to mean the solo provider may have only one 

provider number per pricing locality. To give the provider more provider numbers would 

perform only a bookkeeping purpose for the provider since payment would be the same if an 

additional provider number were given. 


On the other hand, some carriers appear to have fewer limits on the number of provider 

numbers or modifiers given to a provider. For example, a physician with multiple office 




                                              17
settings in the samepricing locality could be given an additional provider number or a new
modifier to a base number for each unique address. Also, if the payee or tax identification
number under which payments are recorded is different, the carrier assignsdifferent provider
numbers.

As one carrier medical director stated, “it appearswe are being asked to act as a bookkeeper
by providing multiple provider numbers.” One example cited by the director involves
multiple provider numbers assignedto a radiologist “in order to segregatepayments for his
professional servicesas opposed to payments to the sameradiologist for technical services
where the equipment may be owned by a different entity.” Several carriers reported that
giving multiple provider numbers was just a “matter of courtesy to the provider. * One
carrier cited specific direction from its accounting department to “give multiple provider
numbers for eachphysician practice location.”

Figure 4 depicts the different carrier practices in assigning additional provider numbers (or
modifiers to a base number) to the sameprovider. It also shows some carriers treat certain
types of providers differently when assigning additional provider numbers for the
bookkeeping purposesof the provider.

                         Many Carriers Give Additional Nunbers for
                          the Provider’s Bookkeephg Convenience
                     Carriers
                                                   1A




                                                        DME        Ambulance

                     Source:    Carrler   Survey   (23 rerpondentr)


                                                        Figure 4



Data supplied HCFA by the Physician Registry confirms many physicians do have more than
one provider number. (See Figure 5.) Over fifty percent of medical physicians (doctors of
medicine or osteopathy) have multiple carrier records at the same or other carriers. The
HCFA refers to such records as active practice settings.




                                                           18
               Many Medical Physicians Have Multiple Provider Numbers
                          with the Same or Multiple Carriers

     Carrier
  rlumbers/                                                                                                                           Four or More
    Records               One Carrier                            Two Carriers                       Three Carriers                      Carriers               Total
        1           187,618                46.3%                   0                0.0%               0               0.0%             0     0.00%       197,616       46.3%
        2            92,651                21.7%             28,738                 6.7%               0               0.0%             0     0.00%       121,380       28.5%
        3            36,561                 8.6%             16,600                 3.9%           1,331               0.3%             0     0.00%        54,692       12.8%
        4            15,405                 3.6%              8,483                 2.0%           1,083               0.3%            75     0.02%        25,056        5.9%
        5             7,246                 1.7%              4,338                 1.O%             631               0.1%            79     0.02%        12,286        2.9%
     6-10             7,966                 1.9%              5,028                 1.2%             804               0.2%           145     0.03%        13,943        3.3%
    Ii-46               786                 0.2%                581                 0.1%              82               0.0%            33     0.01%         1,504        0.4%
     Total         358.237                 84.0%             63,979               15.0%            3.851               0.8%           332     0.08%      426.499       100.0%
  source: Preliminary UPIN data presented by HCFA researchers at the 118th Annul                                                                    Meeting of the
           American Public Health Association, October I, 1990.

                                                                                    Figure 5

Variation exists from carrier to carrier concerning the average number of active records
(practice settings) for physicians with UPINs. Carrier averagesrange from a low of 1.05 to
as many as 2.49 provider numbers (practice settings) per physician. (See Appendix F.)
While many factors such as the number of carrier pricing localities or local physician
practice patterns may help to explain carrier variations, carrier easeof assigning multiple
provider numbers is surely a significant factor.

Interestingly, we found three carriers with multi-state jurisdiction, and the States’ averages
were vktually identical. (See Figure 6.) This finding underscoresthe impact a carrier’s
provider number assignment policy can have on the average number of provider numbers per
physician.

                         Carrier Policy Impacts Provider Numbers                                                                      (Records)
                                    .:.                                   ~.‘..‘.“..
                                                                               .’.f??I::::::J:
                                                                                   :.:::.- .:-.:...     .:.:.::.::: . J Uris& ction
               ::. : :
                                ”
                             ,. ;,.
                                    .
                         ., !..: 1: :‘?‘I:::I~:]j’l:~:/~~:~f<:.­..-&‘fii&
                                                             :.                  :. ::. ‘.’
                                                                                             ,~;::::~:fi~” :I:: ~:.~~:~:::~:~,:::j
                                                                                               :           :.               .,.
                                                                                                                                        Avg. Xdrocords
                ‘. ..                                                                                                                    per Physician

               Nationwide                 Mutual          Insurance                                      Ohio                                2.20
                                                                                                         West Virginia                       2.35

               Aetna Life and Casualty                                                                    Oklahoma                           1.32
                                                                                                          New Mexico                         1.32

               Blue Cross and Blue Shield of Arkansas 	                                                  Arkansas                            2.14
                                                                                                         Louisiana                           2.14


                                                                                   Figure 6




                                                                                           19
                   RECOMMENDATIONS

The HCFA should:

0	   specify a minimum framework for provider number assignment to be followed by all
     carriers. Within this framework carriers should be allowed flexibility for
     implementation. Additionally, this framework should recognize similarities and
     distinctions between types of providers. Some areas to addressinclude:

            the minimum essential data elements carriers are to maintain in their computer
            systemson providers,

           other information deemed necessaryor valuable for the carrier to obtain from
           providers during the provider number application process,

           provider information to be validated and the method(s) of verification, and

           carrier responsibility to:

            b	     maintain a list of all Part B provider types with corresponding Federal,
                   State and local laws affecting legal authority to practice and the
                   carrier’s methods of verifying legal authority. Carriers should be
                   required to maintain communication with appropriate agencies (e.g,
                   licensing) adequateto understandand monitor changesin legal
                   authorization requirements.

           b	      ensure, before issuing a provider number, adequatedocumentation on
                   each provider number assignmentincluding:

                   1) 	   a completed application (containing a penalty clause for making
                          false statements)signed by the individual provider; the owner, if
                          a business; or a company official, if a corporation,
                   2) 	   the method and contacts used to verify the provider’s
                          credentials,
                   3) 	   a list of all other provider numbers assigned the provider (the
                          carrier should determine the need for continued use of identified
                          numbers and document justification for the new number), and
                   4) 	   the specific reassignmentexception(s) applicable as well as a
                          statement, signed by the reassigning provider, acknowledging
                          the reassignment.




                                           20
             b	     query the Registry, prior to assigning a provider number, for all active
                    records/practice settings listed for the specified physician. The carrier
                    should ascertain a provider’s need for identified provider numbers and
                    deactivate those not neededin their jurisdiction. The carrier should
                    notify other carriers where numbers exist. Also, if an existing number
                    is flagged for any type of carrier review, the new provider number
                    should be considered for possible review as well.

             b	     maintain relevant application documentation (e.g., application form) for
                    active provider numbers.

             b      verify provider qualifications.

             b	     have adequatesystem controls to 1) identify all provider numbers
                    assignedto a particular provider and 2) ensure providers with multiple
                    provider numbers cannot avoid prepayment review or screens,
                    postpayment utilization review, and overpayment recovery.

             b	     identify all providers (e.g., physician assistants)adequatefor
                    utilization review on an individual basis.

             b      update (at least) annually any listings used for license verification.

             b	    identify the ownership of providers and maintain such information in
                   the carrier’s computer system in a manner ensuring identification of
                   entities having the same owners. Carriers should review the ownership
                   databasefor sanctionedindividuals or entities.

            b	     maintain provider records which are complete (e.g., license number
                   entered in file) and consistent (e.g., name field should carry the same
                   spelling in each record pertaining to the provider).

            b	     evaluate their provider application forms to ensure they are well
                   designed, easy to understand, and professional in appearance.

            b	     ensure coordination between the provider number assignment staff and
                   other departments (specifically, those for program integrity - medical
                   and utilization review) for the sharing of experiences and suggestions
                   for improvements to provider number assignment procedures.

0	   consider implementation of a system of user fees to defray the costs of provider
     number assignment and maintenance (e.g., determination of legal authorization to
     practice, Physician Registry contact for prior or present practices, more extensive
     review of applicants, assignment of additional provider numbers for a provider’s
     convenience, and efforts to update records).



                                             21
0	     expand the Physician Registry to include non-physician practitioners such as clinical
       psychologists, audiologists, nurse anesthetists,midwives, physical and occupational
       therapists, nurse practitioners, physician assistants,and clinical social workers.

0	     require the Physician Registry to provide feedback to carriers concerning all active
       practice records (settings) for physicians with unique practitioner identifier numbers.

0	     ensure carrier implementation of HCFA provider number assignment directives. We
       recommend HCFA consider evaluating implementation through a Contractor
       Performance Evaluation Program (CPEP) standard(s).



     HCFARESPONSEAND                                      ACTION                 PLAN
The HCFA provided written comments on the draft report. More importantly, however, 

HCFA itself has undertaken several major initiatives to addressthese problems and related 

issuesraised in a prior OIG report entitled “Carrier Maintenance of Medicare Provider 

Numbers. ” We and HCFA, therefore, worked together to reach agreement on an action plan 

to improve the provider number process. In light of this, we are no longer designating the 

problems cited in this and the prior report as a material weakness. The following is the     ~

agreed upon action plan: 



                          MEDICARE      PROVIDER      NUMBERS

                                     ACTION PLAN

      GEh?ERAL

      HCFA will issuea modification to the Medicare Carrier Manual which will:

             Clearly statethat carriers have a responsibility to ensurethe integrity of
             provider numbersandto ensurethat only thosepractitioners andproviders
             with legal authority to practice are given and may retain provider
             numbers.
                                                                                                 .
             Require carriersto stayabreastof changesin relevant laws and regulations
             concerningmedical practice requirements.

             Require carriers to make every reasonableeffort to receiveon an ongoing
             basis information from State licensing authorities and other appropriate
             bodies about the currency of licenses.

             Require carriers to maintain provider number applications for at least six
             years after deactivation of the number (the period needed to facilitate

                                            22
          investigations, prosecutions, and sanctions). This requirement pertains to
          applications from both health professionals and provider entities which are
          discussed separately below.

          Require carriers to periodically purge from their lists of approved numbers
          those that have been inactive and for professionals or entities who no
          longer have valid licenses required by the State.


EEALlTl      PROlTESSIONALS

HCFA will continue to vigorously implement and enforce compliance with the
provisions of the recently established UPIN system for Medicare physicians
(which includes medical doctors, osteopaths, dentists, chiropractors, podiatrists,
and optometrists).

HCFA will explore the extension of the UPIN system to cover all limited licensed
professionals that can bill Medicare directly. HCFA will provide a schedule for
doing so. This would include clinical psychologists, clinical social workers, and
certified registered nurse anesthetists.

All registry data will be made readily available to all carriers on January 1. 1992.
(Procedures prior to that date only allowed carriers to obtain information about
professionals within their own jurisdiction.)

HCFA will monitor and ensure compliance of the carriers with their responsibili­
ties regarding provider numbers as set forth in the Medicare Carrier Manual. (See
GENERAL section above.)


SUPPLIERS

HCFA will implement a major reform of the carrier process for dealing with
certain “suppliers”. (Here, the term is meant to include entities which provide:
durable medical equipment, routine and readily available supplies, prosthetics,
orthotics, immunosuppressant drugs, and ESRD services.)

Some of the more important features of this initiative are:

          Four regional carriers will be responsible for establishing supplier numbers
          and processing all Medicare claims for the above mentioned supplies.

       A clearinghouse which will contain information from supplier number
       applications and whose data will be accessible to all of these carriers.

       A standard application form which includes information to enable the
       carriers to identify each unique entity, their ownership, related entities,
       and sanctions.


                                           23
        The application form will contain a signed statement of the applicant
        attesting to the veracity of all information provided and acknowledging
        responsibility for false or misleading statements.

        The carriers will be responsible for processing all claims for supplies
        furnished to beneficiaries who reside within their jurisdiction.

HCFA plans to implement this major reform within the next two years.

The statement of work for the contract under which these carriers will function
will include a clear statement of responsibilities concerning supplier numbers
similar to those listed in the GENERAL,section above.

These carriers will be required to use the information in the clearinghouse to
screen applicants for supplier numbers for such things as relationships to
sanctioned individuals or business or to businesses suspected of fraud or abuse.

The carriers will verify the accuracy and completeness of the information
contained in supplier number applications and files, and will identify and take
appropriate action against problem suppliers.

HCFA will vigorously monitor compliance of these carriers with those contractual
provisions related to the application for, granting of, and maintenance of supplier
numbers. HCFA is determining how the performance of these carriers will be
evaluated.

HCFA will require carriers to reenroll all suppliers every two years to insure that
the ownership and operating information remains current.

In the future, HCFA will extend this system to cover other supplier entities such
as independent physiological labs, magnetic resonance imagers, and ambulance
companies. In the meantime, however, these other supplier entities will be
required to use a standard application form with provisions for identifying
ownership and sanctions, and including the signed veracity certification.




                                         24
                                        Endnotes

1
 Only a few statesmonitor medical suppliers. One state, North Carolina, requires places
 dispensing prescription devices (e.g., TENS units, support hose, catheters) to register
 with the State Board of Pharmacy. An application must be completed before a permit is
 issued. The person issued the permit must supply such information as his education,
 home address, social security number, criminal history, employment history, and photo.
 New York is pursuing legislation to provide similar authority to its pharmacy board.
 Although the Board assignspermits, the Medicare carrier for North Carolina does not
 verify a supplier’s permit prior to assigning provider numbers.

 Another state, California, has passedlegislation giving the Department of Health
 Services (Medi-Cal Prograrh) the authority to require more involved information from
 suppliers of incontinent supplies (e.g., diapers). For example, suppliers must have a
 retail businesslocation (not a P.O. Box) and,inventory. Additionally, operators are
 required to supply such information as owners, interested parties and the driver’s license
 numbers for names reported. Suppliers misrepresenting themselves through either the
 application or supporting documentation are subject to criminal penalties of up to 5 years
 in jail and as much as a $500,000 fine. A State official reports efforts to have the law
 amended to apply to other types of suppliers (e.g., durable medical equipment).

2
 Suppliers such as DME often provide oxygen and other medical gasesto beneficiaries.
If the supplier repacks (transfills) the gases, they are required to register with the Food
and Drug Administration (FDA). FDA conducts annual inspections of registered
suppliers. Although it is a criminal offense not to register, FDA has not sought
prosecution. Suppliers who do not register are not inspected and therefore, are not
required to correct violations of FDA regulations nor stopped from providing gasesif a
danger to the public exists. None of the carriers contacted require FDA registration
certificates from suppliers. In fact, no carrier’s application form even asks the supplier
whether they repack gases.

3
 A new reassignment exception has been recently added. The exception allows
 physicians covering the practice of another physician to reassign payment to the absent
 physician for a specified period of time.
                         APPENDICES 



Appendix   A:   Part B Providers
Appendix   B:   Carrier Respondents and State Jurisdictions
Appendix   C:   Examples of Information Requested on Application    Forms for
                DME and Physicians
Appendix   D:   Claim Jurisdiction Rules Simplified
Appendix   E:   Examples of Carrier Methods of Processing PA Claims
Appendix   F:   Physician Registry Activity by Carrier
Appendix   G:   Carrier Provider Number Assignment Activity
Appendix   H:   Carrier Supplied Counts of Various Types of Providers
Appendix   I:   HCFA Comments to the Draft Report
                   APPENDIX   6


Part B Providers
                                                                                                      APPENDIX        I$ 





      *                l
                            Blue Cross and Blue Shield of Alabama           AL 
      Alabama
     *                 *    Aetna Life and Casualty                         AZ, NV 
 Arizona, Nevada
     *                 *    Arkansas Blue Cross and Blue Shield, Inc.       AR,LA 
 Arkansas, Louisiana
     *	                *    Blue Shield of California                       CA 
      California
                       *    Transamerica Occidental Life Insurance          CA 
      California
                            Blue Cross and Blue Shield of Colorado          co 
      Colorado
                   *        Travelers Insurance                             CT 
      Connecticut
                   *        Blue Cross and Blue Shield of Florida, Inc.     FL 
      Florida
I     *                *   1Aetna Life and Casualty                       IGA 
     1Georgia
      *            *        Aetna Life! and Casualty                      1HI 
     1Hawaii
      *            *        Equicor                                       1ID 
     1Idaho
      *            *        Health Care Service Corporation               I IL 
    I Illinois
                   *        Associate d Insurance                           IN 
      Indiana
                   l
                            Blue Shield of Iowa                             IA 
      Iowa
                   *        Blue Cross and Blue Shield of Kansas            KS 
      Kansas
                   *        Blue Cross and Blue Shield of Kentucky        IKY 
     1Kentucky
                   *       Blue Cross and Blue Shield   of Marvland       1MD 
      1Marvland
I    *     I       *       1Blue Cross and Blue Shield of Massachusetts   1	MA, ME   1Massachusetts, Maine,
                                                                           VT,NH      Vermont, New Hampshire
     *             *       Blue Cross and Blue Shield of Michigan          Ml         Michigan
     *             *       General American Life                           MO         Missouri
     *             l
                           Blue Cross and Blue Shield of Kansas City       MO,KS      Missouri, Kansas (Johnson and




I
** Blue Cross and Blue Shield of North Dakota has assumed responsibility for Wyoming from Equicor.
                                                                                                                                                                          APPENDIX                 6


                              Information Requested on Application Forms for DME
  ,.....:
.‘:.........:.,:
          . ,,.:.,:
                  ;:...
  ..>::.>:.:.:.:.:.::::.:.:.-.’
              ,:.:-.-:
   .:::i::i:i:‘!::i,::li:;
                  j:j:j:j:.     ..,.,.
                     ;..:..:::.::, :,.,.
                                       :::
                                .:.::::::::.:.
                 “.....‘.....‘.‘.hi,.
                                 ..:    ..,.,......,.,.        ..:..:.::j.:‘:‘..:..
                                           ......).:,.):.,.:.:::”
                                          .:.            .‘::::::....:
                                                                ..):.))),.:.,
                                                         ,.,...,....~.
                                                              ....,,
                                                 j.....;::F:y,,::..
                                     :::::)::,:i:::.j:.::j:i ..i..11/../
                                                               .i....            ..::::
                                                                                    ..:.::.
                                                                          : /,...:.:::::.
                                                                     ../.”‘:     .:.:.:.:.:::... ,.j::j:::::::.:jj:jjj:j::ky.,
                                                                                      ..::..::.::
                                                                                        ....:jjjjj:.:.:.    .:Kj:j:j:.::.,.’1..<:j:.:.::.:
                                                                                                                               :...::.
                                                                                                  ..::::j.j:j.:.::.:.:.:,:.:.:..:
                                                                                                                  :.:
                                                                                                                    ..)).              :..:
                                                                                                                                :.::j,:,::,...
                                                                                                                                          ::::
                                                                                                                                       ..:: :..:::.:
                                                                                                                                           .::.   : :.:.,:I,::.,
                                                                                                                                                     y..,..“‘:..::
                                                                                                                                                .:.:.:.:       .c&e& ‘.&&G&&bata
             .:.
              ...  .......
                      .    . ‘?,
                             . :,,,.,.
                                   j ;
                                     : :/:;
                                          ,::..:::.,,
                                           ,::::.:
                                              ,..   .
                                                 ..,..
‘ii~~i;ilil:iiiiiii;~~~~~~~~~~~~~~~~~~~~~~~~~:~~~:~:~:..   :.::3:,
                                                               ,.:.::.:.:.:::.y ::::::::::::.
                                                                                         :::.x...
                                                                                           :.:..  :.::    . :... .
                                                                                                            :‘:.:i’;,:,
                                                                                                                  .:::::::
                                                                                                                     :::::
           ..,.,.
            .,.,.,.
      : .......
.,.,.,..))~,~, . ..... .,.,.,.,.,.,.       ,:,c.;:
                                    ,..,.,.,.,
                                   .;,.,_.,.
                              ..,.,.,.,
                            .,.,  ,....
                                                :,:,::,lfi~~~~mq@&
                                                    :
                                                 .,.,                                           :,jc:j;i:i;i;ji.;:j
                                                                                                       ....:...::.,.
                                                                                                             . ..:      .:.. ....::..$$$ j;:::::;:;i.:
                                                                                                                 . ;.;5:;;:.::?;;I:.:3;:::                .,.,:$$$,:::,;;
                                                                                                                                                                   z;;...
                                                                                                                                                                      .+;;I;w
                                                                                                                                                                            Count:,c.Percent
                                                                                                                                                                        .,.,.,     ..7
Background/Profile          Information:
:I’;;iji,.:s~~~~~~~~:~~~.:~~~~. ./:j)$:.:;
                                     ..... . :.jj::ii:.‘..ij:::::~j::.I:jIi::.~~
                                               .I             y. ;$:I...         .... .Y.‘jj:iB.. .:..:.I:
                                                                        ‘.:,y:l.;i;;::i.                  .,. .:.:: .:::$::I:::,     :jji,,x,:j;...1.;;....;. j: ‘.:.: ::yy I .:. ‘fj@&
      Doing Business As (D/B/A)
                             :iri$$l:‘;i;;
$$,;;;;Bil~ig ~&f&e~, :::ii:llij<,,                            ....,,;I$;, ,.,;:::l:::;
                                    $:i;i;;;..;f:.:.‘:~~;+.;::;:.:I::
                                                           +i/;/;                            I:I:,:,I;;:;;;~~:~;~~.
                                                                                     :.;:;,,;:         j;:jjl:l:;l:::~:,,~:~
                                                                                                                  :::::;;.::i,;:)li;jii:T:j
                                                                                                                                   ::i:i;:j ;.&:,:,:I::;:::I::,:1::.;.1,.,;y;. .; :A.:.:I.!.:x’g
$;jj:il::B&G&&,(,ffi~                  ........... ....;.::.:.x,;j
      Bi!iing Te Wme jJ$.J&@,z:~~:i’:‘:;y~                     ...... .
                                                              ,~y’$‘!‘:,I:j:     .............;;:::~::i::~,
                                                                                :.:;;y      .            ,,.....:;;::?
                                                                                                                  ‘-:::jj:~/
                                                                                                                         T’:j;j:;.~$:iji;::i:ij;::,.::I:: .:::.,:    “‘..’.“‘3$’...:::;;:;
                                                                                                                                                              .:iij‘.::,;::::y         ; :‘:agig




Request for Some Type of Documentation                                                   with Application: 





Certification           and Signature               on Application: 




Type of Business: 





Questions Concerning What and How Services are Provided:

‘:~:::‘l”(jn~r-~&&~~~~~~s      tin                             mis &g@ :.:. I..: .: :.:.:I)‘..‘I
                                                          y~b&d@,g~lj&ifi&~~\~                                                                              ‘.           : l...         -3% 

    Does the beneficiary sign contract prior to or at the time of delivery,,,                                                                                                             .g
‘:( Does acontract               indicate       if the supply                    is rental   or putia;sed        .: ...::1.    ‘.. :     ... .I:j:,:.”                     :1
    is the equipment provided both purchased and rental items or purchaseonly 

    How are prescribin physicians’ and benef~iaries’ si natures obtained                                                                                                  :-               :z 

    The names and ad 3 resses of parties supplying your B ME equipment

 ‘>‘Do safes representzltlves aiways have direct onsite contact with beneficiary at sale                                                                                  :-              2

    Are sales made through catalogs 
 (mailorder)                                                                                                                                        11% 

    Describe how items are .marketed                                                                                                                                      ;~
    Describe how orders are received and processed (e.g., phone, mail, or in person)                                                                                      4              1z
    tf testinq is performed, what tape is done and what ohvsician provides trainino                                                                                       1               3%
Ownership, Financial Interest, and Employee Questions:
    Owner’s name                                                                                                                                                        22:             59%
    List ail licensed practitioners who are employees, owners or have a financial interest
    list ail licensed ractitioners who are cons&ants or contractors                                                                                                       :~              ii;
    Number of emp Povees                                                                                                                                                  1               3%
                                  Information                                                    Requested on Application                                                                                 Forms for DME (cont.)
      ..( :,). :’                            .. :                                         .‘. ..:.,.,.j:::::i:::.. . .
                                                           ,: :.,. ..‘,‘. . ........’..,:.,,:.                               ::         ..:: .. ...:..            :.   .‘.       .:.: ....
         ::. :.:,.s:..             : .,:                         . ..’ .‘. ‘,,“.           .,.:           .:.:..::.                    .:..                                                                                     ‘I’.
     .. . . .                                               ,:..:. ‘. : ,,,‘, .: .’ .::;:I:.:“:.:“:‘...:.:: ..:,: ,: .,: ,,, .,::    ,:;..:...                                                                                     :
    .. :... .,.,. ....                                                                                                                                                                            . 1,
    ::::Y?.:..:f...‘.‘.                     . :j:.:....    ;:.‘.:.               ~-I’~f~ation.:Reguested                                                                     ~~;:;‘:;;:::      .:::;T.   .,... ;?:: .,... ..      : ?;.:I   .j: :,:..,,,   ,.::I:.    : w’,            ; :;   pe&.jt
     ::;::.::.l:.‘l~:~
                   ..::...:.I: ,.;,;;:,,,?::..,..:::.::)    .’ .“.             .: .,
      : .: ..... :: :: ..

    Billing ,C+estions:
    ~;:::::;$is-~‘~b;li~g
                       ‘e&e u& (pioin& ,:... ..,; .. .
                                                       t&$&me and $jdEs)                                                                                                                     .. .. :        ..                  ,:., .“:.                            ..,“’     ,, fi            ..     -1696
         Will this.offie bill by electronic media claims                                                                                                                                                                                                                                               11%
     ::“:“i”!p*&g#&lbcg;ti;ori                                                           .&‘~l~ing @Co&-, .ji.:j:;:,.                                                  ’             :           :       ;..                   ..                  ..          .....:...:I:j:
                                                                                                                                                                                                                                                                        :; ,,, .::;.::.:.. . . .I..
                                                                                                                                                                                                                                                                                                 $g
I    ,.
            fs a.hospital your biifing agency                                                                                                 1
     i:.:.%,bg&$& eentra u,rjg :&jje,-,,, %:..,,
    .,:                                                               ;. . ..              ::’ ‘:         j                          .... .., , .j... ....:.;g
           Will
              .,. you bill from your corporate or office address                                                                              1              3%
           ‘Am.b&hMediwre and NonMedicampaknts                        charged the same for the same’st&vices ‘.‘.                            :j :: :’ :.:;.%%
           Will YOUbe biiiina for patients located in other states                                                                            3              8%
    Participation Status Question$;.
        ‘Y$i& j;ou pmicip~e(jtn’.#&d&&ythe                       &&      ... ‘:,. .;.... y...;.+.         :. .;       .. .... ,,, .j.... ~g~.‘,-:I::~.:y;cr%
    :c.
            Do vou accept assionment (will participate)                                                                                      2              5%
    Qu,estions to Determine Jurisdiction, Other Provider Numbers, and Service Area.. :
       .,“:Do~~~“‘~iii:other &a. i+i&r&$com~$jies                           :                                                           .: 1           ‘.: :3%.
           Do you have other numbers with this carrier                                                                                        5           14%
    .....Do yo$&&tly             have a.Medic& biliihg number in~&&&&s                             .:,.             ,’        ...         ,” 9.‘.      .::‘24%
              .,Do you bill any of these numbers? if so! what items are billed at each                                                        1              3%
                                                                                                        ..                                 ” 2 I~          ::tjtg
        : Do~o~+~~ers~oljeratorshave&y-other numbers
           Qst ail companies related to yours which are or have been Medicare providers                                                       3              a96
         .‘Arethere any similar companiesin this State in which”owners have a financial interest                                              3’         ..a96
           in what States have you been located and what numbers were used                                                                    2
    : ., Do j&‘hab.&f&i.aeli&j              ‘&f&s/l~aQon$ jn the St&$<.:<.:.:c:                                                           .13’: :.           5%
                                                                                                                                                          35%
          Are you pan of a chain of stores with a centralized billing office                                                                  3              a96
        .. ‘--~I.:if,yes;shwid’corres~de~e               be sent to the billing offii ......::           ..     .. ‘.           :. ,:.:,. I :               :3%
        ..is this company a chain store
                                     ..
                                                                                                                                              1              3%
      :   ,,   fsyou::cdmp~y                                               .assodi~d                            ~             ‘any         othe’r
                                                                                                                                                           :a%
                                                                                                                                                         supply        cOm:p~~:;l:,~.:,                           ...                                                     “,      1    :




                ff yes, what is the numberof sales outlets, names, .and are charges uniform                                                   1              3%
          W~all.indi\riduals.~a\iing.a-financial’inierestin           your company’tio have been in Medicare                                 2             :5%
          Do,you have a branch office in this State                                                                                           1              3%
     .~::~::l&~&r?&ffi~@:&    &&i&f!& ~ain”~ff@ ,,.,,,,;j              j .              ::,;,,, ..                                         ..1:              3%
          is,yw firm a branch office or muiti-state supplier? if so, where are billing and tax records                                        1              3%
       ..‘Doywhave saies’represent&es”in                    this state (gNe names, addresses and phone %s)                                  12
         What is the name of your parent company                                                                                              2              5%
         ;Are yw hospital 6-d          ;:ji ;, ,:$.; ‘::                                                                                      2~            5%
          is a member of this entity currently employed by another state or out-of-state                         company
               in a management, accwnting, auditing, or similar capacity                                                                     2               5%

    Questions Concerning the Supplier’s Past:
      Datethis business started (or first started providing services)                                                                                                                                                                                                          12                      32%
      Have you recently terminated your association with any supply company in this area                                                                                                                                                                                        1                       3%
      Was this company purchased (give business name, previous owner and                                                                                                                                                                                                        1                       3%
          were accounts receivable purchased by you)                                                                                                                                                                                                                            1                       3%
      Have VW had a biiiina number in this area                                                                                                                                                                                                                                 2                       5%
Some Types of Information                   Obtained on Physician Application   Forms 





3lny provider numbers with other carriers
Will a billing service be used
                                                                                                                                                                                                                                      APPENDIX            ti


                                                      Claim Jurisdiction                                           Rules Simplified


                                        TYPE SERVlCES                                                                                     JURISDICTION
                                                                                                                                          DETERMINATION
Phvsicim     Servic88
              S8rvic88 r8nd8d       from m office                                                                  Curiw           88rvicing             offic8         loc8tion
              In a 8ingle pay lodii

              S8rvic8s r8rd8d  from offic88                                                                        E8ch offic8 8srviced by 8ppropri8te
              in more thm on8 curid     8re6                                                                       cmitn baed on each office location

              No office,                us-          hom8 8ddra8                                                   Home ad&m                       loc8tim

              Servica   provid#l     by ouGd8                                                                      bC8tiOll             Of OUt6id8            f8Cikv
              f8cilii (e.g., clinic)

              provide    fdii       bib for                                                                        Lowtion              of provider               f8cilii
              884088     of provide-brd           phricim
              or phy8ici8n8 who r8nd8r8 88rvic88
              primurily in provider     fdi
              8etting  18.0.. 886x8         p8rfornd
              in 8 hapitd     88tting,   hcepital     bill81


              Provkk-bned                           phy8icim               who m8int8ins          8                Priv8te         office       location
              priV8t8            Office       for     th8     tr88tt,I8nt             Of
              hi6        OW”      p8ti8tlt8


              Provider-bad                       phy8icim                  bilk                                    Loc8tion             of provider               f8cilii
             p8tient8             directly           or through
              billing        86rvice          ~6% doa                not
             h8V8          m      OffiC8        OUt6id8         the
             provide              fdri

             Provider-bm8d     phy8icim performing                                                                 Eech providsr                f8cilii             loaltion            for
             88rvica    in mor8 thm on8 ftiri                                                                      8ervic86             r8nder6d           therein


             Note: Pnyeiciens who meintain more then one office cennot be nzquired to bill from eech of&e                                                                                                           for the services
             renoked h the indduel   offie.

Suodier    Servic66
             A 8i,,gl8            OffiC8        8Uppli,,r         i6 8 8Uppkr              with   brmdl   OffiC86,88k/rmt8k                          OUtkt6,                or r6qX6J68flt8tiV86                     in only        on8      CMl’i8r
             jurisdiction.                 Multi@8            ~8rri8r             8Uppk6      8r8 thO88   6uppk6           with         brmCh        0fflC66                or 8d88/rmtd                  outlstr         in more           thm
             on8         curkr          g8ogrphic                ~88.


             single            office      rupplier 	                                                              Cmiw           88rvicing              office         loation           regardl868                of whsthsr
                                                                                                                   8uppkN            providm              86rvic86            to cu6tom6~6                  out6ide           the      fxrrier’8
                                                                                                                   86rViC8         =88


             Multiplbcarrier                    8upplkr                                                            Locetion             of where            the       88rvics           i6 fumi8hd                  to the        beneficiwy
                                                                                                                   whsther              or not the           8uppk                 1186s 8 cmtrd                    billing       office         (e.g.,
                                                                                                                   the     8ite     where          the      compmy                 met        with        ths       beneficiary             or
                                                                                                                   where          the       compmny               received          the       b8n8fiCiq’6                  c8il      - where
                                                                                                                   the     88rvice           we6     furrkhed)


             DME 6upplier                     with      branch              offices                                Location             Of Where            purchase               m8d8         or c8t6h3g              848         or if no
                                                                                                                   branch          office       or c8tdogua                     outk.          ths    location             Wh8r8           the
                                                                                                                   regiond           c8tdogue               center            is located             md         from     which         the
                                                                                                                   equipment                ~166 8hippod


             SUppli8r             Of pOrtti8                X-ray,          EKG,      Or                           Location             of where            the       rervice           is rendered
             8i,,Iih,r         pOrt8b,8             88&X6


             Ind8psndsnt                   Iabor8tory                                                              Locstion             of Wh8r8            the        labomtory              tmt     is performed
                                                                                           APPENDIX   E



         Some Carrier Methods                of Processing         PA Claims


One carrier reviewed (BC/BS of Minnesota) assigns a provider number (e.g., POO5)to
physician assistantsalong with a group number to the clinic or group employing the
PA. Those responsible for filing any claims are told to include the PA’s number in
item 24H of HCFA form 1500 to indicate the performing provider. The supervising
physician’s name is to be placed in item 24C and the name and provider number of the
group or clinic is to be included in item 31.

Some carriers like Nationwide of Ohio, do not assign a number to a PA, but rather
flag a supervising physician’s number (e.g., Ohio uses flag 54) to indicate to the
claims staff that the provider number department has verified that a licensed PA works
for this provider. A carrier official said that claims should indicate who the PA is that
did the service, but is not required for the claim to process. However, even if the PA
is identified on the claim, a claim representative processing the claim could only
ascertain from the computer that the supervising dot has a PA employed. Only the
Flag indicator is accessible. Consequently, if a physician employed more than one PA
or a new PA replaced the PA which was approved by the provider number
department, the carrier would have no knowledge of what PA performed the service.

Like Nationwide, Aetna of Georgia does not assign a number to PAS. However the
carrier does require the claim to indicate the physician assistant who’s qualifications
are verified at the time of claim processing. A claim representative is instructed to
enter the first 4 characters of the physician assistant’s name, the first initial of the first
name, two spaces and the first three initials of the supervising doctor’s name. If the
physician assistant had been previously credentialed by the carrier (license or
certification verified) the claim would process. However, if such a mnemonic check
reveals the physician assistant has not been set up for this physician, the claim will
suspend and an application will be sent to the submitter of the claim.
                                                                                                                                        APPENDIX     i


                                      Carrier Registry (UPIN) Activity
                                                                    Total                     UPINs            ( Average              Hecords1




                                                                                                                              I .T”


 BC/BS of Pennsylvania        (a)                                                                                             1.48           I
 Aetna Life and Casualty       (e)              ,   ,-      ,                 . . ,---            -,---                       1.48
 Bc/Bs of Kansas                                1    KS1                       5,673              3,801                       1.49
 Aetna Life and Casualty       (e)                  .NV
                                                      ..
   1                  -,---
                                                                               3.098              2,068                       1.50




                                                            I=
 Blue Shield of Western       New York              NY                        19,931             13.232                       1.51 

 BC/BS of Nebraska                                  NE                         4,447 

 BC/BS of Masaachusetta         (a)                 NH                         4,331 

 Blue Shield   af Iowa                               IA                       12.305 

k lllieor
    -.-                                              ID
 BCIB! 5 of Pennsylvania       (a)                  DC                                            -,.-- ,                     1.64
                                                                                                                              ..-.           I
1 General American       Life Insurance   Co.       MO                                           _IQAlR I                     1.64 

                                                            I                 ..T,-  ,           .-,.-  ,                     1.70 

                                                                              12,030 I            6,990 1                     1.72 

                                                                                                                              1.75 

                                                                                                                              1.75 

  Travelen                                      1   MS      1                   7:                                            4 7c 

  BC/BS of Mervland                             1   MD       1                18.1               10,539 I                     1.76 

  BCIBL -. . ---                                I   TXI
                                                     .__     ,                __,_. . I
                                                                              6[1.671            33.6!34
                                                                                                 __,__.  I                    1.79           I
  BC/BS of Kanraa Cii                               MO      1I                 7.259
                                                                               . ,--     ,I       AOR!
                                                                                                   .,---                      1.80
  Equicor (a)                                       TN                        20,- I             11,117                       1.BO
  BC/BS of Michigan                                 Ml      1             32,785         1       18,079                       1.81
1 Associated Insurance Company                  (    IN     I             m.&i!5
                                                                          -_, .--        I       11,104                       1.84
  Heaith Care Service Corporation                    IL                   sP.?MI
                                                                          -,--                   28,397                       1.84
  BC/BS of Pennsylvania (a)                         DE                      2,637                 IMOI
                                                                                                   I,-“”       1              1, .-.
                                                                                                                                  R7             I
  BOBS of Kentucky                                  KY                    14,811                  7,912        ’              1 n7
                                                                                                                              I._,
                                                                                                                                                 I
  Empire BC/BS                                      NY                    76,057                 39,950    i   ,              1.90           1
  Transamertca Occidental Life Ins. Co.             CA                    a-                     36,542        1              1..--
                                                                                                                                 87              I
  BC/BS of Massachusetts      (a)                   MA                    47,909                 24,749        1              1.94               I
  California Blue Shield                            CA                   104,248                 532
  Equicor (a)                                       NC                    28,667                 13,9c-        (
  BC/BS of Florida                                  FL                    71,825                 =,= I
  BC/BS of Arkansas (a)                             AR                    11,147                   5,216 1
  BC/BS of Arkansas (a)                             LA                    19,900                   93 15                      2.14
  BC/BS I of Alabama                                AL                     ._,___
                                                                          lQ.fFi!i        I        -.-.‘8
                                                                                                   Q.Oi                       2.19
I Nationwide Mutual Insurance Co. (a)               OH                    53 AS9
                                                                          --,  .-        ,1      32
                                                                                                 --, RnA
                                                                                                      --- (                   7 70
          1of Minnesota                             MN                      9,137        1         4,027 1
           wide Mutual Insurance Co. (a)            WV                    10,016-         I          .~~~ 1,
                                                                                                   4.255
          ; of South Carolina                       SC                    19.2!74                  7,733 I
                                                                                   I10    I     703,102 1

 - letters next to carrier names distinguishes        between    same carrier but different management             control.
 Source:   From data supplied         the O/G from the Physician   Registry     12/9o.
                                                                                                                                                       i



                                                                                                                                  APPENDIX        6





    Blue Cross and Blue Shield of Alabama




    Eauicor                                           I    ID I              30        I        10         I       5   I      5      I        1





    Blue Cross and Blue Shield of




Travelers       Insurance                                  VA                     l                  l             5        10                    t
Washington Physicians Service                              WA               130                20                  5          5              15
Wisconsin Physicians Service                               WI               100                25               7-10       7-10                   .

a
    This value refers to # assignment      for Pennsylvannia    only and to newprotiders   from out-of-state.
l   Indicates    the cam’er did not know
Source:       Cam’er suppfied   approximations    (5/90)
                                            APPENDIX   ki




Carrier Counts of Some Part B Providers 

                                    Carrier Physician Counts by Type and State
    State 8 Carrier                             MDs/DOs                Dentists             Podiatrists                 Chiropractors              Optometrists        Clinics
   AL BIB                                             6,537                   1,609                        76                           364                                    60
   AR BIB                               l             3,565                                                46                           301                   269             252
   CA BS                                             35,634                     725                    1,357                          3,721                 1,560           1,770
   CA TO                                             21,771                   6,194                    1,590                          3,550 ia              3,069           12 45
   CO B/B                                             7,410       1           1,794     1                1431                           762 1                 3641            131
   CT Tra                                            12.195       1             659     1                413 I                         !a11                   4861            239
 i DC
   --     B/B
          -.- PA
              ___               1 *I                  5.234
                                                      -,--
                                                      --,---      I
                                                                  I             128
                                                                                 .--    I                124
                                                                                                          ..- I
                                                                                                         .-.                           101
                                                                                                                                       --.
                                                                                                                                        .-. I                 1261
                                                                                                                                                               .--           -jr 5
   DE B/B PA                      *                   1,352       I                14   1                  341                           561                    55 1             i4
   FL B/B                               l            26,767                                                                                                                      99
   GA Aet
   HI r.“.
        Am’                     i                          z-                                                  20                      125                    123
- IA BIB                                l                 4,640                 343                       131                          696                    536
   ID / BIB
        -.-                     1       l                 1,210                  16                        26                          165                     74
   IL BIB                               l            17fc7A                     RR!!                      RRA                        l!iR6                  Ifs7             Q6R
   IN BIB                                              7,923                    130                       2901                          590    1              660 1          320
  ,KS B/B                                              4,146                 1,042                         61 1                         499    1              3671           373
   KS B/B KC                        l                      970                    29                         291                        loo    I                361             2
   KY B/B                       I           I          8.&i
                                                        -,--- 1                 3%
                                                                                --- I                      95
                                                                                                           _. I                         4321
                                                                                                                                         .--                  A;;
                                                                                                                                                               .-. 1          Qi
                                                                                                                                                                              -- 1
   LA BIB AR                        t                  6,761                    526                        75                           512                   342            416
   MAA BIB                          l                19,609                  4,256                       694                            607                 1,056            450
   MI D B/B                                            6,396                 1,475                       227                            196                   221            342
   MLn R/q‘,’ PA                    l                  3,443                      93                     100                              71                    69            47
   ME B/E !MA                       l                  2,401                      67                       56                           161                   190             66
   MI BIB                           l                23.670
                                                     --I-- -                 3.088
                                                                             -,---                       798
                                                                                                         . --                        1.768
                                                                                                                                     .,. --                 16AA
                                                                                                                                                            .,_.             547
                                                                                                                                                                             - .-
,MN B/B                                                5,915                    613                        63                           616                   439            395
   Ml N Tra                                            2,695                      70                       75                           440                   100 

   M( 3 BIB                         l                    2,829                    62                       57                          342                    177                 4

   MO G-A                                               4.512                   338
                                                                                ---                      118.-                         a!39
                                                                                                                                        ---                   377
                                                                                                                                                              -.-            107

                                                                                                                                                                             .-.
   MS Tra                                               2,730 1                   65 1                     321                          170    1              1661
   MT BIB                                               l.R45 I                   Ql I                       7R I                      1RA I                  1RAl
   NE
   NC




I   No   l   indicates
- Data supplied
                         the approximate         number ofprotider
                         by canters to the OIG (10/89).
                                                                            records     (i.e., numbers).
                                                                      Data applies to 47states         and the District of Columbia.
                                                                                                                                                                                       I


I
- Blank cells indicate
- Clinics are providers
                              the carrier has no providers
                               listed under HCFA specialty
                                                                        with the indicated
                                                                          ‘70’ (multispecialty
                                                                                                 specialty
                                                                                                    clinic).
                                                                                                                    or no counts were provided.
                                                                                                                                                                                       I
                                  Carrier Nonphysician                                                              Counts by Type and State
                                                          Physician                                                    Nurse                         NlJW!                   Physical                     Occupational
State 81Carrier                                           Assistants                 Audioloaists                   Anesthetists                    Midwives                Therapists                     Therapists




                                  I                   ,                                                         I                                                                           --
            I                                 l                                 II                  437 1                      673 1                                    I           1   !Dn I                                I
            t                                 l                                                       331                      117 I .                         1




                I..   .                                            --                                 --
            3                                 l                                                       41                        l!.”            ,                       I
           B                                                                                          50                                                                                1
MD     B/LB _PA__                             t                         3                             13                                        I                  31                       49                           4
ME     B/B MA                                 l                                                       ii                                  50                                                36

MI    B/B                                     l                                                     365                       1,313                                1                        96
MN     B/B                                                                                                 4                    474                                                         16
MN     Trr  m                 I                   I
                                                                                                           E
                                                                                                           “,
                                                                                                                                17EI,“,                                I
                                                                                                                                                                                            7fl
                                                                                                                                                                                            -1        ,
                                                                            I


MO     B/LB                               l                                                                61                   236 I                                  I                         91                      2
MO     GA                                         I                         I                        201                        1:ii I                                 II                   391
MS    Tra                                                                                                                                 ii1                                               ii 1                             1
MT    B/B                                                                                            22                           14                                                        26                           3
NE    B/B KS                                                       34                                  6                       193                                                          53                           2
NC    EcpTN~~1                            l                       119                                13                        972                                                          64                           2
ND    B/E I                               l                                                           .-
                                                                                                     10                         .--
                                                                                                                               135
                                                                                                                                                                        I                        4
                                                                                                                                                                                                                           I
NH    B/B M,A             (*I                                                                        201                         641                                                     461                             51
                                          l
NJ    BIB PA                                                                                         531                            61                             11                   172 1                            6
NM    AetnKw..            II                      II                        II                       ml I                        MI I                              ml                    26 I
                                                                                                                                                                       I
                AZ                        l                                 I                        12 I                                 19 1                 ,.;I




                                                                            I
                                      l
            I                                                      481                               23 1                      7
-_ _~.
VA    Tr.
VT    B/L .-...           I                       I                                                                                                                                                                          .
WA     PS                                                                                            67 I                      2081
                                                                                                                               ---                               21                     264 I                                I
WI    PS                                                                    I                        361                       1431                                                     -44 1                                I
WV     NL IOH                         t                                                              27 1                        10 I                                                     27 1
WY-    ­
  f   Equ                             l                                                                    1 I                        31 I                                                  20 1                             I
                                        _-
                            Carrier Nonphysician                                               Counts by Type and State (cont.)
I                                                                                 1 Portable          1 Clinical          ( Physiological              1                      1Other Supply*
     State & Carrier                                     Ambulance                  X-Ray                Labs                   Labs                       DME*                 (e.g., drug)         1
     Al   B/B                                                     162                            2               61                          21                 595
     AR    B/w‘R                            t                     236
                                                                  ---                            5               47                           2                 726
     CA    BS                                                     150                          5i             1,065                          69               6,161                        473
     CA    TO                                                     499                          43               594                                           1,247                      3,009
     CO     BIB                                                   171                           6                57                               51          13=
     CT    Trr                                                    105
                                                                  .--                          12                  291                                          722                         366
                                            l                        11 I                                          -26 1                          6             220                         237
                   PA               1 *I                             77 I                             I                                      11                          56                 176




1 IN BIB                                         I                290                          12                  135                      120               1,
                                                                   7                            1                  166                                          701                           1
                   KC                       t                      6                            1                    5                                          135                          53
                                I                I               767                           10                   76                       13               1.272                         949

                   , .. .           I                I           .wll
                                                                  .-- I                        11.
                                                                                               .      I            17s
                                                                                                                    -- I                    113 I            2.231            1           1.9911
                                                                  I".         ,                                      ."                                            -.­
             rn     D*          I           *I                           rl                      Al                 45                        7                     47
                                                                                                                    20                       16 	                  292                       252
                                                                                                                                                                   C77




             B KS               I                I               241 1                           21                 16 1                              I       1,196 I                            21


             BMA                        l                            93 1                        1 I                261                           41
                                I                I                   .    .   ,                . .    ,            . .-                      --        ,           -.-                    _,-_   ­

             *nK                I                I                   (I7 I                       71                 RQ I                               I                                     1921




TX B/E 3                                                                                       25 1                365 1                     991              3260 1                        9631
TN Equ                                  l                         176                           5                  202                       92                166                        1,765
UT B/B                                                             66                           2                   18                                             446
VA Tra                                                             64                           6                   34                       13                 211                         643
VT B/B MA                                                          69                                                4                                 ,        129                         136
WA PS                                                             177                                              107                                          515                       1,039
WI PS                                                             361                           6                   24                                          249                       1,251
WV NMOH                                 l                         152                           4                   56                                          494                         243
WY Equ                                  t                          63                                               27                                            32                         129
Total                                                          10,600                      553                6,583                     1,725                45,653                      36,996




I
 l    Other Supply consists of counts supplied by carriers under HCFA specialty code 87. DME consists of counts
     supplied under HCFA specialty codes 51-58. During the course of contacting some carriers, we discovered some 

     carriers include DME under specialty 87 rather than specialty 54 as prescribed by HCFA.                                                                                                          I

